No. 20-5801
IN THE SUPREME COURT OF THE UNITED STATES

JAMES ROGERS, PETITIONER
V.

STATE OF FLORIDA, RESPONDENT.

CERTIFICATE OF SERVICE OF REPLY BRIEF
IN SUPPORT OF CERTIORARI

CAREY HAUGHWOUT
Public Defender
Paul Edward Petillo
Assistant Public Defender
Counsel of Record
Office of the Public Defender
Fifteenth Judicial Circuit of Florida
421 Third Street
West Palm Beach, Florida 33401
(561) 355-7600
ppetillo@pd15.state.fi. us
appeals@pd15.state.fi. us

I HEREBY CERTIFY that I am a member of the Bar of the Supreme
' Court of the United States and represent Petitioner in this cause; that all
parties required to be served with the Reply Brief in Support of Certiorari
have been served pursuant to Rule 29.5, Rules of the Supreme Court of the
United States, by sending a true and accurate copy thereof, by first class U.S.
Mail and by email, addressed to the following parties or their counsel, on 14
December 2020:
Amit Agarwal
Solicitor General
amit.agarwal@myfloridalegal.com
Jeffrey Paul DeSousa
Chief Deputy Solicitor General
jeffrey.desousa@myfloridalegal.com
Office of the Attorney General
PL-01 The Capitol
Tallahassee, FL 32399-1050

Respectfully submitted,
CAREY HAUGHWOUT
Public Defender
15th Judicial Circuit of Florida
421 Third Street
West Palm Beach, Florida 33401
(561) 355-7600

Paul Edward Petillo
Assistant Public Defender
Counsel of record

2

